* *.

Case: 19-14408

Date Filed: 07/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14408-E

LAWRENCE F. CURTIN,
Plaintiff-Appellant,
versus
KIMBERLY CORTEZ,
in her official role as Assistant State Attorney,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Florida

Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Lawrence Curtin has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of
this Court’s order dated June 8, 2020, denying his motion for in forma pauperis, in his appeal
from the district court’s dismissal of his 42 U.S.C. § 1983 complaint as frivolous. Because
Curtin has not alleged any points of law or fact that this Court overlooked or misapprehended in
denying his motion, his motion for reconsideration is DENIED.

Case: 19-14408

Date Filed: 06/08/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14408-E

LAWRENCE F. CURTIN,
Plaintiff-Appellant,
versus
KIMBERLY CORTEZ,
in her official role as Assistant State Attorney,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ORDER:
Lawrence Curtin seeks leave to proceed in forma pauperis (“IFP”) in his appeal from the
dismissal of his pro se 42 U.S.C. § 1983 complaint against Florida Assistant State Attorney
Kimberly Cortez. Because Curtin has failed to demonstrate that his appeal has at least one issue
i
of arguable merit in law or fact, his motion for IFP status is DENIED. See Napier v. Preslicka,
314 F.3d 528, 531 (11th Cir. 2002).

/s/ Charles R. Wilson
UNITED STATES CIRCUIT JUDGE

Case 2:19-cv-14274-JEM Document 19 Entered on FLSD Docket 10/3172019 Page lot 2

V.

UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
FORT PIERCE DIVISION
Case Number: 19-14274-C1V-MaRTINEZ~MA¥NARD
LAWRENCE F. CURTIN,
Plaintiff,
vs.
KIMBERLY CORTEZ,
Defendant.
/

ORDER ADOPTING MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
AND ORDER ON MOTIONS
THIS CAUSE was referred to the Honorable Shaniek M. Maynard, United States
Magistrate Judge, for a Report and Recommendation ("R&R”), [ECF No. 5]. Magistrate Judge
Reid filed a R&R, [ECF No. 10], recommending that (a) Plaintiffs Complaint be dismissed with
prejudice and without leave to amend; (b) Plaintiffs motions for injunctive relief, [ECF Nos. 7,
9], be denied; and (c) Plaintiffs Motion to Proceed in forma pauperis, [ECF No. 3], be denied as
moot. The Court has conducted a de novo review of the entire record, including Plaintiffs various
objections to Magistrate Judge Maynard’s R&R, [ECF Nos. 11, 12,13, 14, 16]. The Court finds
that Plaintiffs various objections have been adequately addressed by Magistrate Judge Maynard’s
well-reasoned R&R, and Plaintiff merely seeks to reassert arguments previously raised.
Accordingly, after careful consideration, it is hereby:
ADJUDGED

that

United States Magistrate

Judge

Maynard’s

Report

and

Recommendation, [ECF No. 10], is AFFIRMED and ADOPTED.
The Court has also reviewed Plaintiffs Notice of Filing/Motion for Hearing, [ECF No.
•:

15], and Plaintiffs document docketed as “Maynard Substantial Errors” and Motion to Appoint
Counsel, [ECF No. 16]. The Court similarly finds these motions without merit The documents go

Case 2:19-cv-14274-JEM Document 19 Entered on FLSD Docket 10/31/2019 Page 2 of 2
3

on to describe Plaintiffs time “in Lybia just before Hillary Clinton had Kadaffi murdered," his
time in South Africa, and his involvement writing social legislation. The Court cannot find any
grounds fijr a hearing on the matter. Plaintiffgoes on to request counsel as he believes Magistrate
Judge Maynard “represents" Defendant Cortez. However, there is no constitutional right to an
appointment of counsel in a civil case. Kilga «. Ricks, 983 F.2d 189,193 {1 life Cir. 1993); Fowler
v. Jones, 899 F.2d 1088,10% (11th Cir. 1990). Accordingly, Plaintiffs Motions, [ECF Nos. 15,
16], are DENIED.
Accordingly, it is
ADJUDGED that:
1.

Plaintiffs pro se complaint is DISMISSED with prejudice pursuant to 28 U.S.C.
§ 1915(e)(2)(B). SeeSilvav. Bieluch, 351 F.3d 1045,1048-49(11th Cir. 2003).

2.

Plaintiffs Motion for Emergency Injunction, [ECF No. 7], and Motion for
Preliminary Injunction, [ECF No, 9]* are DENIED.

3.

Plaintiff's Motion for Leave to Proceed in forma pauperis, [ECF No. 3], is
DENIED AS MOOT.

4.

Plaintiffs Notice of Filing/Motion far Hearing, [ECF No. 15), and Motion to
Appoint Counsel, [ECF No. 16], are DENIED. This case is CLOSED.

DONE AND ORDERED in Chambers at Miami, Florida, this 3]_ day of October, 2019.

Copies provided to:
Magistrate Judge Maynard
All Counsel of Record
Lawrence F. Curtin, pro se

-2-

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 1 of 15

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-14274-CIV-MARTINEZ/MAYNARD
t

LAWRENCE F. CURTIN.
Plaintiff,
v.

KIMBERLY CORTEZ, in her official role as
Assistant State Attorney,

\

Defendant.
REPORT AND RECOMMENDATION ON PLAINTIFF’S MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS (DE 31. MOTIONS FOR INJUNCTIVE RELIEF (DE
7 & 9) AND COMPLAINT (DE II
THIS CAUSE comes before this Court upon Orders of Reference (DE 5) and the above
Motions. Having reviewed the Motions and without awaiting the Defendant’s appearance in this
case, this Court recommends as follows:
BACKGROUND
1.

This Court draws the background to this lawsuit from the Plaintiffs various

filings to-date. This Court bases the present background section on the background section from
the Report and Recommendation at DE 71 in Curtin v. Wentz, et al., 18-14417-CIVMARTINEZ/MAYNARD, adding to it new information that the Plaintiff pleads in the present
case. This Court provides the below updated background for general context purposes only,
without making any findings of fact.
2.

The underlying event is the motor vehicle accident on September 7, 2012. The

Plaintiff says that he was driving on 1-95 when a truck entered the interstate highway from an
adjacent construction site. The Plaintiff swerved to avoid colliding with the work truck, but in

Case: 2:19-cv-14274-JEM

Document #: 10 Entered on FLSD Docket: 09/12/2019

Page 2 of 15

doing so he crashed his vehicle into an obstacle. He claims debilitating physical injury as a
result1. The Plaintiff further alleges that the accident and resulting injuries also interfered with a
business opportunity that he says he was developing at the time. At page 3 of DE 1—2 in this
case, the Plaintiff proffers a letter from the University of Nevada that confirms that he and his
wife had toured its campus and a gold quarry mine in August 2012. However that letter does not
fconfirni his assertion that he had developed a way to use radio waves (as an alternative to

J'

fcyanide) to.separate gold from slag.
3.

In October 2013 the Plaintiff filed in state court a civil complaint against the truck

owner and others to recover for his personal injuries from the underlying car accident. See Curtin
v. State Farm Mutual Auto, Ins. Co.. Ranger Construction Industries. Inc., and Bob’s Barricades.
Inc,, Case No. 2013 CA 1809 (Fla. 19th Judicial Circuit). St. Lucie County Circuit Judge Janet
Croom presided over that case. That case ended on April 12, 2016 when Judge Croom entered
summary judgment in the defendants’ favor. (Judge Croom’s Order is found in the record at
pages 19—20 of DE 39 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.) That case since
has been concluded at the appellate level, with all appeal opportunities exhausted. See Curtin v.
Ranger Constr. Indus. Inc.. 2018 WL 5761224 (Fla. Nov. 2,2018) (dismissing appeal), Curtin v.
Ranger Constr. Indus. Inc.. 2018 WL 4181688 (Fla. Aug. 29, 2018) (transferring a petition for
writ of prohibition), and Curtin v. Ranger Constr. Indus.. Inc.. 2017 WL 2535171 (Fla. June 12,
2017) (dismissing appeal). In addition to appealing up through the state’s appellate courts, the
Plaintiff filed two lawsuits in this federal court related to that state court personal injury lawsuit.

1 At page 21 of DE 39 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD the record
contains an Incident Report from that wreck, and at page 34 thereof a treatment note of a heart
attack that happened while he was in the hospital.
2 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 2 of 15

doing so he crashed his vehicle into an obstacle. He claims debilitating physical injury as a
ft

result1. The Plaintiff further alleges that die accident and resulting injuries also interfered with a
business opportunity that he says he was developing at the time. At page 3 of DE1—2 in this
case, the Plaintiff proffers a letter from the University of Nevada that confirms that he and his
wife had toured its campus and a gold quarry mine i
B?*-sia7v<tf

Sit
3.

In October 2013 the Plaintiff filed in state court a civil complaint against the truck

owner and others to recover for his personal injuries from the underlying car accident See Curtin
v. State Farm Mutual Auto. Ins. Cn._ Ranger Construction Industries. Inc., and Bob’s Barricades.
Inc.. Case No. 2013 CA 1809 (Fla. 19th Judicial Circuit). St Lucie County Circuit Judge Janet
Groom presided over that case. That case ended on April 12,2016 when Judge Croorn entered
summary judgment in the defendants* favor. (Judge Groom’s Order is found in the record at
pages 19—20 of DE 39 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.) That case since
has been concluded at die appellate level, with all appeal opportunities exhausted. See Curtin v.
Ranger Constr. Indus. Inc„ 2018 WL 5761224 (Fla. Nov. 2,2018) (dismissing appeal), Curtin v.
Ranger Constr. Indus. Inc.. 2018 WL 4181688 (Fla. Aug. 29,2018) (transferring a petition for
writ of prohibition), and Curtin v. Ranger Constr. Indus.. Inc.. 2017 WL 2535171 (Fla. June 12,
■

2017) (dismissing appeal). In addition to appealing up through the state’s appellate courts, the
Plaintiff filed two lawsuits in this federal court related to that state court personal injury lawsuit

i At page 21 of DE 39 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD die record
contains an Incident Report from that wreck, and at page 34 thereof a treatment note of a heart
attack that happened while he was in the hospital.
2 of 15

Case: 2:19-cv-14274-JEM

Document #: 10 Entered on FLSD Docket: 09/12/2019

Page 3 of 15

They are Curtin v. Travelers Property Causality Corp., 17-14403-CIV-ROSENBERG and Curtin
v. Ranger Construction Industries. Inc., 16-14427-CIV-ROSENBERG, Both of those cases since
have been closed.
4.

The Plaintiff also wrote Governor Scott to complain about Judge Croom.

Governor Scott informed him of the option of filing a complaint with the Judicial Qualification
Committee (“JQC”). Thereupon the Plaintiff began writing letters to the JQC. After receiving no
response to his letters, the Plaintiff also wrote the Florida Senate’s Judiciary Committee.
5.

The Plaintiff proffers one of his JQC letters at page 2 of DE 1—2 in this case. In

that letter, dated April 23,2018, the Plaintiff complained that Judge Croom’s ruling in the
defendants’ favor amounted to a denial of his constitutional rights. He complained about the
serious injury that he and his wife suffered as the result of the underlying cair accident. He cited
Biblical law principle of an “eye for an eye”, the need for punishment to fit the crime, and his
own sworn obligation to enforce the constitution and “to stop Croom.” Presumably it was that
letter that the JQC regarded as threatening towards Judge Croom. The JQC forwarded it to the
Chief Judge of the 19th Judicial Circuit, and the Chief Judge in turn forwarded it to the St. Lucie
County Sheriffs Office. Sergeant Colangelo instructed Detective Wentz to investigate the
possible threat.
6.

On June 29,2018 Detectives Wentz and Cannon went to the Plaintiffs house to

interview him. The Plaintiff consented to the interview, and the detectives taped it. (Their
Investigation Report begins at page 4 of DE 51—1 in Case No. 18-14417-CIVMARTINEZ/MAYNARD.)
7.

Their investigation led the detectives to suspect that the Plaintiff had threatened

Judge Croom in violation of § 836.12(2), Fla. Stat. With their supervisor’s approval, the
3 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 4 of 15

detectives applied for an arrest warrant. Assistant State Attorney Cortez also approved it and
forwarded it to Judge Eisenhower. After he reviewed it, Judge Eisenhower then issued the arrest
warrant. (The arrest warrant is attached to Defendant Wentz’ Motion to Dismiss that was filed at
DE 70—1 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.)
8.

In addition to applying for the arrest warrant, law enforcement petitioned for a

Risk Protection Order pursuant to § 790.402, Fla. Stat., for the protection of Judge Croom. The
St. Lucie County Sheriffs Office was the Petitioner, and its general counsel, Adam Fetterman,
Esq., represented it in that proceeding. The case of St. Lucie County Sheriffs Office v. Curtin.
Case No. 2018 MH 416 (19th Judicial Circuit) was opened. Judge Belanger presided. On July 5,
2018 Judge Belanger entered an ex parte temporary risk protection order.
9.

On July 9, 2018 law enforcement arrested the Plaintiff on Judge Eisenhower’s

warrant. (ThelPiaintiff-was released ffom iainwelv^hours afteFhis arrest;, Defendant Wentz
reports at page 8 of DE 47 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.
10.

On July 16, 2018 Judge Belanger held a hearing on the Sheriffs request for a

Final Risk Protection Order. The court heard testimony from Detective Wentz and the Plaintiff.
The transcript begins at page 3 of DE 44 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.
Judge Belanger granted the Petition. In his Final Order, which begins at page 4 of DE 48—1 in
Case No. 18-14417-CIV-MARTINEZ/MAYNARD, forejudge found clear and convincing__ ]
(evidence that the Plaintiff posed a sigriificant clan geY of causing personal injury to 'Hirmelfnr to -'
others. \
11.

One of the terms of that Final Risk Protection Order was a mental health

evaluation. Presumably that is the mental health evaluation that was done on July 31,2018 which

4 of 15

' *

4

Case: 2:19-cv-14274~JEM

Document#* 10 Entered on FLSD Docket 09/12/2019

Page 4 of 15

detectives applied for an arrest warrant Assistant State Attorney Cortez also approved it and
forwarded it to Judge Eisenhower. After he reviewed it, Judge Eisenhower then issued the arrest
warrant (The arrest warrant is attached to Defendant Wentz’ Motion to Dismiss that was filed at
DE 70—1 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.)
8.

In addition to applying for the arrest warrant, law enforcement petitioned for a

Risk Protection Order pursuant to § 790.402, Fla. Stat, for the protection of Judge Croom. The
St. Lucie County Sheriff's Office was the Petitioner, and its general counsel, Adam Fetlerman,
Esq., represented it in that proceeding. The case of St Lucie County Sheriffs Office v, Curtin.
Case No. 2018 MH 416 (19th Judicial Circuit) was opened. Judge Belanger presided. On July 5,
2018 Judge Belanger entered an ex parte temporary risk protection order.
9.

On July 9,2018 law enforcement arrested the Plaintiff on Judge Eisenhower’s

warrant the Plaintiff was released fromjail twelve hours after his arrest, Defendant Wentz
reports at page 8 of DE 47 in Case No. 18-14417-CIY-MARTINEZ/MAYNARD.
10.

On July 16,2018 Judge Belanger held a hearing on the Sheriff’s request for a

Final Risk Protection Order. The court heard testimony from Detective Wentz and the Plaintiff
The transcript begins at page 3 of DE 44 in Case No. 18-14417-CIV-MARTTS'EZ/MAYNARD.
Judge Belanger granted the Petition. In his Final Order, which begins at page 4 of DE 48—1 in
Case No. 18-14417-CIV-MARTINEZ/MAYNARD, the judge found clear and convincing
evidence that the Plaintiff nosed a significant danger of causing personal injury tn him»»tfwtr>
Others.
11.

One ofthe terms of that Final Risk Protection Order was a mental health

evaluation. Presumably that is the mental health evaluation that was done on July 31,2018 which

4 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 5 of 15

the Plaintiff proffers at pages 28—32 at DE 39 in Case No. 18-14417-CIV MARTINEZ/M AYN ARD.
12.

On July 24, 2018 the State of Florida filed an Information against the Plaintiff,

thereby commencing the criminal case of Florida v. Curtin, Case No. 2018 MM 1668A. County
Judge Philip Yacucci later took over as the presiding judge. The Plaintiff proffers that
Information at page 3 of DE 1—2 in this case. As the Plaintiff reports at DE 7 filed in this case,
that criminal case remains open and pending. Indeed the present civil Complaint rests in part on
the Plaintiffs grievance over being held on house arrest for over a year now, with no trial set and
no way to seek relief on appeal on a pro se basis. Perceiving no right to appeal in state court or to
otherwise obtain a remedy in state court for the resulting alleged violation of his due process
rights, he comes to federal court to ask for relief.
13.

On October 11,2018 the Plaintiff filed in this federal court the complaint that

began the prior Case No. 18-14417-CIV-MARTINEZ/MAYNARD. There the Plaintiff sued
Detective Wentz (the officer who investigated the reported threats against Judge Croom and who
applied for the arrest warrant), the St. Lucie County Sheriffs Office, and the JQC. He later
expanded the scope of that § 1983 lawsuit to include several of those involved in the state
criminal and risk protection cases including-ASA.Kimberly_Cortez.whom he names as the
Defendant here in the instant lawsuit.
14.

Around the same time when he filed his complaint that began Case No. 18-14417-.

CIV-MARTINEZ/MAYNARD, the Plaintiff filed two additional federal lawsuits. The first,
Curtin v. Judge Croom, et al.. 18-14437-CIV-ROSENBERG, concerned the underlying motor
vehicle accident. It since has been closed. See Curtin v. Croom. 2019 WL 760598 (S.D.Fla. Feb.
20, 2019). The second.^urtin v..Florida-State Attorney. 18-14441-CIV-ROSENBERG/WHITE,
5 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 6 of, 15

concerned the criminal prosecution. It also was closed pursuant to Younger Abstention which
bars a federal court from interfering in a state pending criminal case.
15.

Assistant Public Defendant Whitney Duteau was appointed to represent the

Plaintiff in the criminal case. On November 2,2018 she asked the court for a competency
evaluation. The Plaintiff proffers that motion at page 5 of DE 1—2 in this case. The Plaintiff
criticizes his defense attorney for taking that action, and he complains about the transfer of the
case from criminal to mental health court. Hejlad’appealed that transfer, but his appeal was
denied.
16.

In his Complaint filed in this case, the Plaintiff objects to the various

psychological evaluations that the state court has ordered to-date. Judge Belanger ordered one on
July 31,2018 which Dr. Galloway conducted. The Plaintiff says that Dr. Galloway conducted
another one on March 29, 2019.
17.

At DE 7 in this case the Plaintiff proffers the first page of a court-ordered

psychological report dated January 18, 2019. In that report Dr. Zaky opines that the Plaintiff is
incompetent to proceed to trial on the criminal chargexfue-to unspecified mental illness and

J

neuro cognitive deficits. Dr.'-Zaky found the Plaintiff to have an ^insufficient mental capacity to
appreciate the possible penalties he is facing, to understand the nature of the legal process, and to
testify relevantly. As for the likelihood of restoring competency, Dr. Zaky gave a poor prognosis ' /
rgiven the Plaintiffs poor insight intoiifs mental Health and neurological issues'and his resistance /'
'to treatment.

6 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket 09/12/2019

Page 6 of 15

concerned the criminal prosecution. It also was closed pursuant to Younger Abstention which
bars a federal court from interfering in a state pending criminal case.
15.

Assistant Public Defendant Whitney Duteau was appointed to represent the

Plaintiff in the criminal case. On November 2,2018 she asked the court for a competency
evaluation. The Plaintiff proffers that motion at page 5 of DE 1—2 in this case. The Plaintiff
criticizes his defense attorney for taking that action, and he complains about the transfer of the
case from criminal to mental health court He had appealed that transfer, but his appeal was
denied.
16.

In his Complaint riled in this case, the Plaintiff objects to the various

psychological evaluations that the state court has ordered to-date. Judge Belanger ordered one on
July 31,2018 which Dr. Galloway conducted. The Plaintiff says that Dr. Galloway conducted
another one cm March 29,2019.
17.

At DE 7 in this case the Plaintiff proffers the first page of a court-ordered

psychological report dated January 18,2019. In feat report Dr. Zaky opines that the Plaintiff is
incompetent to proceed to trial on die criminal charge due to unspecified mental illness
aeurocognitrve deficits. Dr. Zaky found the Plaintiff to have an insufficient mental capacity to
appreciate die possible penalties he is feeing, to understand the nature of the legal process, and to
testify relevantly. As fix’the likelihood of restoring competency, Dr. Zaky gave a poor prognosis
given the Plaintiff*spoor insight into his mental health and neurological issues and his resistance
to treatment

&

J
6 of 15

Case: 2:19-cv-14274-JEM

18.

Document #: 10 Entered on FLSD Docket: 09/12/2019

Page 7 of 15

Beginning at page 9 of DE 1—2 in this case, the Plaintiff proffers a Psychiatric

Evaluation dated July 9, 2019 and written by Dr. Jourdan2 at New Horizons of the Treasure
Coast, Inc. The Plaintiff told Dr. Jourdan that he was there for a court-ordered evaluation, but he
had brought no such paperwork with him, the doctor noted. The Plaintiff denied any history of
mental health problems or treatment. The Plaintiff denied any current mental health problems or
symptoms. The mental status examination was normal. Dr. Jourdan concluded the report by
finding “no evidence of any acute psychiatric illness”, and he sent the Plaintiff back home
without making a follow-up appointment.
19.

In the instant Complaint the Plaintiff sues Assistant State Attorney Kimberly

Cortez under 42 U.S.C. § 1983 for malicious prosecution. Although he-had named her as-a
(fefendahfmhis priori 1983TawsuifinT^Nori-844417-CIV-MAKTINEZ/MAYNARD, he?
|asserts the'ability tO'bring tKis'lawsuit against herin~tHis~caseI~He may do so, he argues, j5e cause
ftis'Court^id.not.formally'dismiss-her-fromJhaJ^-iorTawsuit'ITe hadyolunt^ily droppedPhefas/defendant from-that prior lawsuit,"Instead. At DE 9^6 plaintiff als6"argues against giving ASA(Softez~tHe benefit of prosecutorial"immunity.
20.

He raises several different objections to how Ms. Cortez prosecuted the criminal

case. He objects to the Pretrial Supervision Order that was rendered in his criminal case on
October 29, 2018 (which the Plaintiff proffers at page 4 of DE 1—2 in this case) that enjoined
him from communicating with or about Judge Croom. He complains that Ms. Cortez failed to
use her authority to lift that infringement placed on his First Amendment constitutional rights.
He objects to his arrest, pre-trial house arrest, and criminal prosecution aslacking'^robable cause^'

2 The signature to that evaluation reads “Jourdan”, but the Plaintiff refers to this doctor as Jean
Paul Baptiste.
7 of 15

/

Case: 2:19-cv-14274-JEM

Document #: 10 Entered on FLSD Docket: 09/12/2019

Page 8 of,15

and thereby violating his Fourth Amendment rights. The Plaintiff complains that the repeat
court-ordered psychological evaluations have deprived him of his Sixth Amendment right to a
speedy trial.
21.

He faults Judge Croom for allowing Ranger Construction to continue to operate

road construction sites in a negligent fashion, which allowed two subsequent traffic fatalities, he
contends. He asserts his innocence to the charge of threatening a judge. Rather than recognize his
effort to bring those dangers to light, the Plaintiff complains that the state has used every effort to
cast him as mentally ill. He complains that the state took advantage of his work on radio
frequencies, work which he says could benefit mankind in different ways.
22.

The Plaintiff complains that ASA Cortez continues to prosecute the criminal case

against him despite knowing how the resulting stress worsens his heart condition. “In other
words”, as the Plaintiff frames it at page 11 of his Complaint at DE 1, the ongoing prosecution
constitutes “state murder by proxy.” He says that this is not the first time when state prosecutors
attempted to murder him. That prior attempt stems from a child support case that the state had
brought against him in the 1980’s despite his prominence in Florida’s then Democratic party
leadership, he alleges. His efforts to defend himself in state and federal courts against that
proceeding resulted in an attempt to assassinate him, he says.
23.

Through the instant lawsuit the Plaintiff seeks injunctive and declaratory relief to

correct state court determinations with which he disagrees. He asks that state court
determinations of mental illness be declared false. He asks for a determination that his
constitutional rights have been violated over the course of the civil and criminal litigation in
Florida state court. He asks for permission to communicate with the news media (thereby lifting
the bar to such activities found in the Pretrial Supervision Order). He asks that the tracking
8 of 15

, Case: 2:19-cv-14274~JEM

Document #: 10 Entered on FLSD Docket 09/12/2019

Page 8 of 15

and thereby violating his Fourth Amendment rights. The Plaintiff complains that die repeat
court-ordered psychological evaluations have deprived him of his Sixth Amendment right to a
speedy trial.
21.

He faults Judge Croom for allowing Ranger Construction to continue to operate

road construction sites in a negligent fashion, which allowed two subsequent traffic fatalities, he
contends. He asserts his innocence to the charge of threatening a judge. Rather than recognize his
effort to bring those dangers to light, die Plaintiff complains that die state has used every effort to
cast him as mentally ill. He complains that the state took advantage of his work on radio
frequencies, work which he says could benefit mankind in different ways.
22.

The Plaintiff complains that ASA Cortez continues to prosecute the criminal case

against him despite knowing how the resulting stress worsens his heart condition. “In other
words”, as the Plaintiff frames it at page 11 of his Complaint at DEI, the ongoing prosecution
constitutes “state murder by proxy.” He says that this is not the first time when state prosecutors
attempted to murder him. That prior attempt stems from a child support case that the state had
brought against him in the 1980’s despite his prominence in Florida’s then Democratic party
leadership, he alleges. His efforts to defend himself in state and federal courts against that
proceeding resulted in an attempt to assassinate him, he says.
23.

Through the instant lawsuit die Plaintiff seeks injunctive and declaratory relief to

correct state court determinations with which he disagrees. He asks that state court
determinations of mental illness be declared false. He asks for a determination that his
constitutional rights have been violated over the course of the civil and criminal litigation in
Florida state court He asks for permission to communicate with the news media (thereby lifting
the bar to such activities found in the Pretrial Supervision Order). He asks that the tracking
8 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 9 of 15

device that he wears for house arrest be removed from his ankle: he complains that he cannot
drive his wife to work and back with that “leg iron” on. The Plaintiff also seeks damages—$40
million—as compensation for the baseless legal proceedings against him.
24.

Through the Motions for Injunctive Relief (DE 7 and 9) and his Notice of Fifth

Amendment Violation (DE 8), he expands the scope of his grievances. He seeks reversal of the
state mental health court judge’s decision (1) not to let him represent himself and (2) to send him
back to Dr. Zaky for another psychological evaluation (done at Defendant ASA Cortez’ urging).
The Plaintiff objects that his ongoing pre-trial house arrest (which continues while he remains
incompetent to proceed to trial presumably) violates his constitutional right to a speedy trial. He
also complains that ASA Cortez has kept the criminal charge from being dismissed by
manipulating others into making false claims. The Plaintiff asks this Court to enjoin ASA Cortez
to dismiss the criminal charges currently pending against him.
25.

In his Notice (DE 8) the Plaintiff complains that having to undergo the renewed

psychological evaluation with Dr. Zaky will infringe on his Fifth Amendment right not to be
required “to speak to anyone in a criminal case”. The state court is compelling his participation
in that evaluation under the threat of contempt sanction. He does not want to speak to Dr. Zaky
because in the Report and Recommendation dated May 16, 2019 and docketed at DE 71 in the
case of Curtin v. Wentz, et al.. 18-14417-CIV-MARTINEZ/MAYNARD the undersigned U.S.
Magistrate Judge had warned him not to speak about the criminal charges—that is, not to say
anything that can be held against him in the criminal proceeding. Presumably the Plaintiff refers
to TJ21 thereof where this Court cited the Plaintiffs Fifth Amendment right against self­
incrimination as an additional, practical reason for why this federal court should abstain from

9 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 10 of 15

taking any action that might interfere with the state criminal court proceeding. This Court
expressed concern over how:
[t]he Plaintiffs simultaneous pursuit of the instant civil § 1983 claims risks
undermining his defense against the criminal charge, for example, by hindering
his Fifth Amendment right against self-incrimination. He should decide how to
best present his defense within the context of the state criminal court case and
without risk of taking an inconsistent position in this case.
It should go without saying that the above comment was limited to the context of that abstention
discussion. This Court did not make that comment in the context of a competency evaluation
with a mental health professional or with respect to other facets of the criminal case, itself.
STANDARD OF REVIEW
26.

Pursuant to 28 U.S.C. § 1915(e)(2)(B), this Court first must review the underlying

Complaint to determine whether this lawsuit is frivolous, fails to state a claim for which relief
may be granted, or seeks damages from a defendant who is immune from being sued. See
Martinez v. Kristi Kleaners, Inc.. 364 F.3d 1305,1307 (11th Cir. 2004) (citing Watson v. Ault.
525 F.2d 886 (5th Cir. 1976)) and Coggins v. Tallapoosa County Dept, of Revenue. 2009 WL
1738034, *2 (M.D.Ala. 2009) (citing Procun v. Strickland. 760 F.2d 1107 (11th Cir. 1985)). To
carry out that prescreen review, this Court considers the Complaint under two standards3. First
there is Rule 12(b)(6), Fed.R.Civ.P., which tests whether the Plaintiff states a cognizable claim
for relief. For purposes of the Rule 12(b)(6) analysis, this Court assumes as true all of the
Plaintiffs well-pleaded factual averments and construes all inferences reasonably drawn
therefrom in his favor. Rule 12(b)(6) requires this Court to determine whether, on the basis of

3 Judge Rosenberg previously explained to the Plaintiff these same Rule 12 standards in the
Order of Dismissal that she rendered in Case No. 16-14427-CIV on October 21,2016 (and found
at DE 8 in that case). In that Order Judge Rosenberg also explained the pleading standards of
Rule 8 and the prescreening standard of 28 U.S.C. § 1915(e).
lOof 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket 09/12/2019

Page 10 of 15

taking any action that might interfere with the state criminal court proceeding. This Court
expressed concern over how:
[tjhe Plaintiff’s simultaneous pursuit of die instant civil § 1983 claims risks
undermining his defense against the criminal charge, for example, by hindering
his Fifth Amendment right against self-incrimination. He should deride how to
best present his defense within the context of the stale criminal court case and
without risk of taking an inconsistent position in this case.
It should go without saying that the above comment was limited to the context of that abstention
discussion. This Court did not make that comment in the context of a competency evaluation
with a mental health professional or with respect to other facets of the criminal case, itself.
STANDARD OF REVIEW
26.

Pursuant to 28 U.S.C. § 1915(eX2)(B), this Court first must review the underlying

Complaint to determine whether this lawsuit is frivolous, fails to state a claim for which relief
may be granted, or seeks damages from a defendant who is immune from being sued. See
Martinez v. Kristi Kleaners. Inc.. 364 F.3d 1305,1307 (11th Cir. 2004) (citing Watson v. Ault.
525 F.2d 886 (5th Cir. 1976)) and Coggins v. Tallapoosa County Dept of Revenue. 2009 WL
1738034, *2 (MD.Ala. 2009) (riling Piocun v. Strickland. 760 F.2d 1107 (11® Cir. 1985)). To
carry out that prescreen review', this Court considers the Complaint under two standards3. First
there is Rule 12(b)(6), FedJRXiv.P., which tests whether the Plaintiff states a cognizable claim
for relief. For purposes of the Rule 12(b)(6) analysis, this Court assumes as true all of the
Plaintiffs well-pleaded factual averments and construes all inferences reasonably drawn
therefrom in his favor. Rule 12(b)(6) requires this Court to determine whether, on the basis of

3 Judge Rosenberg previously explained to the Plaintiff these same Rule 12 standards in the
Order of Dismissal that she rendered in Case No. 16-14427-CIV on October 21,2016 (and found
at DE 8 in that case). In that Order Judge Rosenberg also explained the pleading standards of
Rule 8 and foe prescreening standard of 28 U.S.C. § 1915(e).
10 of 15

§

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 11 of 15

that fact background, the Plaintiff pleads a sufficient predicate to state a plausible claim for
relief. That is, a plausible violation of law by which to hold the Defendant liable. Therefore a
claim may be subject to dismissal if the Plaintiff can prove no set of facts to support the claim or
if there is a legal bar precluding relief, see, e.g.. Powell v. Barrett, 496 F.3d 1288,1304 (11th
Cir. 2007) (explaining that "[a] complaint is subject to dismissal under Rule 12(b)(6) when the
allegations in the complaint, on their face, show that an affirmative defense bars recovery on the
claim”). Second there is Rule 12(b)(1), Fed.R.Civ.P., which tests federal subject matter
jurisdiction.
27.

This Court addresses next the scope of review. For general background and clarity

purposes, this Court refers to the documents that the Plaintiff has proffered to-date both in the
present lawsuit and in its previous iteration in Case No. 18-14417-CIVMARTINEZ/MAYNARD. Not only are they documents that the Plaintiff discusses and are
material to his claim, but some of them are documents of which this Court also may take judicial
notice, having been generated in the course of legal proceedings. Moreover those documents
control if they conflict with what the Plaintiff pleads. See Hill v. Fed. Home Loan Mortg. Corn..
2016 WL 916824, *2 (S.D.Fla. 20161. See also Beenot v. J.P.Morgan Chase NatT Corporate
Servs.. Inc.. 2011 WL 4529604, n.7 (M.D.Fla. 2011) and Frame v. U.S.. 2010 WL 5951969, *45 (M.D.Fla. 2010) (detailing the standard by which a court may take judicial notice of public
records when considering a motion to dismiss). See also. Lozmafrv, City ofRiviera'BeachT FlaTrj
713 F.3d 1066, 1076, n.9 (11th Cir. 2013). The Rule 12(b)(6) and Rule 12(b)(1) analyses in this
case both draw from the same underlying fact background.

11 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 12 of 15

DISCUSSION
28.

The primary legal bar that precludes the Plaintiffs ability to litigate this lawsuit is

the absolute immunity that protects the Defendant. See Hendrickson v. Cervone, 2015 WL
925517 (N.D.FIa. 2015) (generally describing the immunity that criminal prosecutors have). The
Plaintiff brings this lawsuit against Kimberly Cortez, the assistant state attorney who has been
prosecuting the criminal investigation and criminal charges against the Plaintiff. The Plaintiff
sues her for her role in the criminal prosecution and more recently in her role in the competency
proceeding related to that criminal case. The Plaintiff frames his grievances against her in terms
of malicious prosecution and constitutional rights violations. The absolute immunity obviates
any need to consider whether the Plaintiff pleads the elements of malicious prosecution, false
arrest, or any of his other claims of wrongdoing, however. It likewise bars consideration of the
Plaintiffs objections to how the Defendant has and continues to-date to prosecute the criminal
case.
29.

At DE 9 the Plaintiff argues against giving ASA Cortez the benefit of

prosecutorial immunity. He argues that she loses its benefit because her sole purpose in filing the
criminal charges was to stop him from exercising his First Amendment right to speak freely
“about the crimes of Janet Croom”. It was the governor who had directed him to file his
complaints with the Judicial Qualification Commission, he points out. The Plaintiff holds ASA
Cortez responsible for the ongoing psychological evaluations for which he sees no legitimate
basis. “Through her self serving and malicious actions” as well as through her sole goal of
violating his First Amendment rights, ASA Cortez “has stripped herself of prosecutorial
immunity”, the Plaintiff argues. This Court finds the Plaintiffs arguments unavailing to lift the
absolute immunity protection that Ms. Cortez has against this lawsuit.
12 of 15

Case: 2:l9-cv-14274~JEM

Document#: 10 Entered on FLSD Docket 09/12/2019

Page 12 of 15

DISCUSSION
28.

The primary legal bar that precludes the Plaintiffs ability to litigate this lawsuit is

the absolute immunity that protects the Defendant See Hendrickson v. Cervone. 2015 WL
925517 (N-D.Fla. 2015) (generally describing die immunity that criminal prosecutors have). The
Plaintiff brings this lawsuit against Kimberly Cortez, the assistant state attorney who has been
prosecuting die criminal investigation and criminal charges against the Plaintiff. The Plaintiff
sues her for her role in the criminal prosecution and more recently in her role in the competency
proceeding related to that criminal case. The Plaintiff frames his grievances against her in terms
of malicious prosecution and constitutional rights violations. The absolute immunity obviates
any need to consider whether the Plaintiff pleads the elements of malicious prosecution, false
arrest, or any of his other claims of wrongdoing, however. It likewise bars consideration of the
Plaintiff's objections to how the Defendant has and continues to-date to prosecute the criminal
case.
29.

At DE 9 the Plaintiff argues against giving ASA Cortez, the benefit of

prosecutorial immunity. He argues that she loses its benefit because her sole purpose in filing the
criminal charges was to stop him from exercising his First Amendment right to speak freely
“about the crimes of Janet Croom”. It was the governor who had directed him to file his
complaints with the Judicial Qualification Commission, he points out The Plaintiff holds ASA
Cortez responsible for the ongoing psychological evaluations for which he sees no legitimate
basis. “Through her self serving and malicious actions” as well as through her sole goal of
violating his First Amendment rights, ASA Cortez “has stripped herself of prosecutorial
immunity”, the Plaintiff argues. This Court finds the Plaintiff’s arguments unavailing to lift the
absolute immunity protection that Ms. Cortez has against this lawsuit
12 of 15

Case: 2:19-cv-14274-JEM

30.

Document#: 10 Entered on FLSD Docket: 09/12/2019

Pagefl3 of 15

Absolute immunity alone warrants dismissal of this lawsuit. However, even if it

were excluded from consideration, other legal bars and principles warrant dismissal, too. The
principle of Younger Abstention bars this Court from interfering in the criminal case which
remains open and pending in Florida state court. See Watson v. Fla. Judicial Qualifications
Comm’n. 618 Fed.Appx. 487, 489—90 (11th Cir. 2015) and Hudson v. Hubbard. 358 Fed.Appx.
116 (11th Cir. 2009) (discussing the Younger Abstention standard). The Plaintiffs various
grievances boil down to an assertion of innocence. The Plaintiff argues that the various state
actors and state court judges are wrong to construe his comments about Judge Croom as
unlawfully threatening. If he feels he is innocent of the misdemeanor charge, then he should raise
those arguments and defenses within the context of that criminal case for the state criminal court
to address. The same goes for any violations of his constitutional rights that he feels he has
suffered within the context of the criminal litigation. He should raise them in the state criminal
case, too. The application of Younger Abstention means that this Court lacks the jurisdiction to
hear them.
31.

Other related principles of abstention and comity also preclude this .Courf s ability

to reverse rulings that the state court rendered against him in his underlying civil negligence
lawsuit. This Court addressed those principles at ^[19 of its Report and Recommendation dated
January 28,2019 and docketed at DE 60 in Case No. 18-14417-CIV-MARTINEZ/MAYNARD.
32.

Dismissal should be without leave to amend. The above analysis shows that this

lawsuit suffers from fundamental defects that amendment cannot cure. See generally. Cockrell v.
Sparks. 510 F.3d 1307, 1310 (11th Cir. 2007) (stating the rule that leave to amend need not be
given if it would not cure the pleading defect or otherwise would be futile).

13 of 15

Case: 2:19-cv-14274-JEM

33.

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 14 of.15

Asa final matter, this Court notes the discretion that it has to restrict a litigant’s

access to federal court to stop that litigant’s abusive or vexatious conduct “from unnecessarily
encroaching on the judicial machinery needed by others”. See Brewer v. U.S.. 614 Fed.Appx.
426, 427 (11th Cir. 2015). Judge Rosenberg also informed him of that risk should he be found to
be an abusive or vexatious litigant. See Curtin v. Croom. 2019 WL 760598, *3 (S.D.Fla. 2019).
In her Order Dismissing Plaintiffs Complaint rendered on April 10, 2018 and docketed at DE 31
in the case of Curtin v. Travelers Property Casualty Com., 17-14403-CIVROSENBERG/MAYNARD, Judge Rosenberg explained to the Plaintiff how the pursuit of
frivolous or vexatious litigation also can subject a litigant to Rule 11 sanctions. This Court
refrains from deciding whether the Plaintiffs future access to this federal court should be
restricted. However this Court does emphasize to the Plaintiff the potential of being sanctioned
or of having court access restricted should he be found to have brought frivolous or vexatious
litigation. As this Court already has explained to the Plaintiff in its prior rulings, a federal court
(1) is a court of limited jurisdiction and (2) can provide relief only for cognizable claims for
relief. This Court strongly advises the Plaintiff to engage the services of an attorney-at-law to
represent him in any future litigation.
34.

This Court now turns to the Plaintiffs in forma pauperis Application. This Court

need not determine whether the Plaintiff is entitled to proceed on an in forma pauperis basis. His
Application is moot because he lacks a cognizable claim for relief on which to proceed.
CONCLUSION
35.

For the reasons this Court explains below, this Court finds that various legal

principles compel the dismissal of the present lawsuit. This Court finds that the Plaintiff fails to
state a claim on which relief may be granted and seeks relief from a defendant who is immune
14 of 15

Case: 2:l9-cv-14274~JEM

33,

Document#: 10 Entered on FLSp Docket 09/12/2019

Page 14 of 15

As a final matter. this Court notes the discretion that it has to restrict a litigant’s

access to federal court to stop that litigant’s abusive or vexatious conduct “from unnecessarily
encroaching on the judicial machinery needed by others”. See Brewer v. U.S.. 614 Fed.Appx.
426,427 (11th Cir. 2015). Judge Rosenberg also informed him of that risk should he be found to
be an abusive or vexatious litigant See Curtin v. Croom. 2019 WL 760598, *3 (S.D.Fla. 2019).
hi her Order Dismissing Plaintiff's Complaint rendered on April 10,2018 and docketed at DE 31
in the case of Curtin v. Travelers Property Casualty Corp.. 17-14403-QVROSENBERG/MAYNARD, Judge Rosenberg explained to the Plaintiff how the pursuit of
frivolous or vexatious litigation also can subject a litigant to Rule 11 sanctions. This Court
refrains from deciding whether the Plaintiff’s future access to this federal court should be
restricted. However this Court does emphasize to the Plaintiff the potential of being sanctioned
or of having court access restricted should he be found to have brought frivolous or vexatious
litigation. As this Court already has explained to the Plaintiff in its prior rulings, a federal court
(1) is a court of limited jurisdiction and (2) can provide relief only for cognizable claims for
relief. This Court strongly advises the Plaintiff to engage the services of an attorney-at-law to
represent him in any future litigation.
34.

This Court now turns to the Plaintiff’s in forma pauperis Application. This Court

need not determine whether the Plaintiff is entitled to proceed on an in forma pauperis basis. His
Application is moot because Ik lacks a cognizable claim for relief on which to proceed.
CONCLUSION
35.

For the reasons this Court explains below, this Court finds that various legal

principles compel the dismissal of the present lawsuit This Court finds that the Plaintiff fails to
state a claim on which relief may be granted and seeks relief from a defendant who is immune
14 of 15

Case: 2:19-cv-14274-JEM

Document#: 10 Entered on FLSD Docket: 09/12/2019

Page 15 of 15

from lawsuit. For those reasons this Court also finds the present lawsuit to be frivolous in the
sense that legal principles bar it from continuing further. Consequently all three reasons for
dismissal under § 1915(e)(B)(i—iii) are met here.
ACCORDINGLY, this Court recommends to the District Court that the Plaintiffs
Application to Proceed in District Court without Prepaying Fees or Costs (DE 3) be DENIED as
moot. This Court recommends that the Plaintiffs motions for injunctive relief (DE 7 and 9) be
DENIED. This Court recommends lastly that the Plaintiffs Complaint (DE 1) be DISMISSED
pursuant to 28 U.S.C. § 1915(e)(2)(B). Given the nature of the defects and the futility of
amending it to correct them, this Court recommends that the Complaint be dismissed with
prejudice and without leave to amend. Cf. Silva v. Bieluch. 351 F.3d 1045, 1048—49 (11th Cir.
2003).
The parties shall have fourteen (14) days from the date of this Report and
Recommendation within which to file objections, if any, with the Honorable Jose E. Martinez,
the United States District Judge assigned to this case. Failure to file timely objections shall bar
the parties from a de novo determination by the District Court of the issues covered in this
Report and Recommendation and bar the parties from attacking on appeal the factual findings
/

contained herein. LoConte v. Dugger, 847 F.2d 745,749—50 (11th Cir. 1988), cert denied, 488
U.S. 958 (1988).
DONE AND SUBMITTED in Chambers at Fort Pierce, Florida, this XQ^day of
September, 2019.
SHANIEK M. MAYNARD
UNITED STATES MAGISTRATE JUDGE
CC:

Lawrence F. Curtin, pro se
1731 Avalon Ave.
Fort Pierce, FL 34949
15 of 15

Additional material
from this filing is
available in the
Clerk's Office.

